IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of
. You can contact us toll free at the number or address listed above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
VISA:

SECURED VISA:

Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers

7.99% - 17.99%

9.74%

depending on your credit history.
This APR will vary with the market based
on the Prime Rate.

This APR will vary with the market based
on the Prime Rate.

Penalty APR and When it
Applies

17.99%
This APR may be applied to your account if you:
1.
2.
3.
4.

Make a payment that is late 60 days or more;
Go over your credit limit;
Make a payment that is returned; or
Do any of the above on another account that you have with us.

How Long Will the Penalty APR Apply? If we increase your APRs due to a late
payment, we may keep them at this higher level on existing and new balances until
you make six consecutive on-time payments. If we increase your APRs for any other
reason, we may keep them at this higher level on new balances indefinitely.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
- Account Set Up Fee:

Visa: None
Secured Visa: $25.00 (one-time fee)

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
None
3% of each transaction in U.S. dollars

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

9009 LASER FI14206 Rev 1-2016

The late charge for payments received after the due date is equivalent to the minimum
required payment amount up to a maximum of $25.00.
None
If your payment is returned for any reason, we will charge you the minimum required
payment amount or $25.00, whichever is less.
COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

